WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 20-5782

Harold Warren y, Indiana

(Petitioner) (Respondent)
IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

Signature

Date: Octoku. 2020

Stephen R. Creason
Mv OMs. Ors. O Miss
Firm Office of the Attorney General

(Type or print) Name

 

 

‘Address_Indiana Government Center South, 302 W. Washington Street, Fifth Floor

City & State Indianapolis, IN Zip 46204

 

Phone 317-232-6222

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Harold Warren DOC #104516
4490 W. Reformatory Rd.
Pendleton, IN 46064-9001
